                         NATIONAL SCIENCE FOUNDATION
                                4201 Wilson Boulevard
                              ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL


MEMORANDUM


DATE:         March 10, 2011

TO:           Martha A. Rubenstein
              Director and Chief Financial Officer
              Office of Budget, Finance, and Award Management (BFA/OAD)

FROM:         Dr. Brett M. Baker /s/
              Assistant Inspector General for Audit

SUBJECT:      Limited Scope Review of Recovery Act Quarterly Reporting Processes at
              the University of Alaska – Anchorage, OIG Report Number 11-1-003


        As part of our oversight responsibilities, the Office of Inspector General (OIG)
has conducted reviews of institutions that have received National Science Foundation
(NSF) grants funded by the American Recovery and Reinvestment Act (ARRA or
Recovery Act) to assess the overall quality of required quarterly reporting. Such
quarterly reports contain detailed information on ARRA projects and activities and are
the primary means for keeping the public informed about the way funds are spent and the
outcomes achieved. Our review objectives were to determine whether the University of
Alaska – Anchorage (UAA or the University) had established an adequate system of
internal controls to provide reasonable assurance that (1) Recovery Act funds were
segregated and separately tracked in its project cost accounting system and (2) quarterly
reporting was timely, accurate, and fully compliant with Section 1512 ARRA reporting
requirements. A detailed description of the background, objectives, scope, and
methodology can be found in Appendix A.

Results of Review

        Our review found that UAA had properly segregated $3.4 million of NSF funds
awarded for eight ARRA grants in its accounting system, submitted Recovery Act
quarterly reports timely, generally established sound written policies and procedures for
ARRA reporting, and developed centralized ARRA reporting to ensure consistent
application of federal and NSF reporting requirements. However, improvements were
needed in the University’s processes for compiling and reviewing the quarterly Recovery
Act information to ensure all data elements reported were accurate, complete, and fully
compliant with Section 1512 requirements. Specifically, our review disclosed that UAA

                                            1
had not established sufficient processes for (i) performing a comprehensive data quality
review of ARRA data to preclude clerical and/or posting errors, (ii) reporting ARRA
vendor jobs, and (iii) checking the debarment and suspension status of vendors.

        As a result, our review of the December 2009 and March 2010 quarterly reports
disclosed that five of the eight data elements we reviewed were correctly reported while
the other three data elements were incorrectly reported. Specifically, UAA accurately
reported the following five data elements: funds received/invoiced, subaward amounts,
quarterly activities/project description, project status, and final report status. However,
the University had not established adequate processes to accurately report the number of
jobs, expenditures, and vendor payments.
        The exceptions identified during our review occurred primarily because UAA was
in the early stages of developing its ARRA reporting processes. Given the delays and
changes to OMB reporting guidance and the volume of ARRA data required to be
reported within 10 days after the end of each quarter, this was understandably a very
challenging process. Nevertheless, given the unprecedented accountability and
transparency goals of the Recovery Act, the development of effective UAA processes and
oversight functions are critical factors for ensuring ARRA data quality.

        A draft of this memorandum was provided to UAA management for its review
and comment. In addition, a written outline of the review results was presented to
University management at the completion of our onsite review work so that timely UAA
actions could be taken to implement improvements needed to promote the highest degree
of transparency and accountability over Recovery Act funds. The University concurred
with the findings and recommendations and began making improvements to its processes
shortly after the auditors brought these issues to its attention. UAA comments and
position on the audit findings and recommendations can be found in their entirety in
Appendix B.

         To help ensure the recommendations are resolved within six months of audit
report issuance pursuant to Office of Management and Budget Circular A-50, please
provide the audit resolution memorandum for our review when NSF has obtained an
acceptable UAA Corrective Action Plan. The Plan should document that appropriate
corrective actions have been implemented to address the report recommendations.
Milestone dates should be provided for corrective actions not yet completed.

        We appreciate the cooperation that was extended to us during our review. If you
have any questions, please free to contact Joyce Werking at extension 8097 or Kenneth
Lish at extension 5004.


cc:    Mary Santonastasso, Division Director, DIAS
       Dale Bell, Deputy Division Director, DIAS
       Alex Wynnyk, Branch Chief, CAAR/DIAS
       Debbie Rafi, Director, University Business Affairs, ONR



                                             2
                          Audit Findings and Recommendations

1. Improvements Needed in Data Quality Review Process to Ensure Accurate ARRA
   Quarterly Reports

        Section 4.2 of OMB Memorandum M-09-21 1 requires “Prime recipients, as
owners of the data submitted, [to] have the principal responsibility for the quality of the
information submitted.” Specifically, the prime recipient is responsible for (a)
implementing internal control measures to ensure accurate and complete information and
(b) performing data quality reviews to identify reporting errors and making appropriate
and timely corrections.

        However, UAA had not established adequate data quality review procedures to
ensure all ARRA data elements were accurate, complete, and fully compliant with OMB
reporting guidance. As a result, our review disclosed the following data elements were
incorrectly reported:

    •   The same vendor payment of $159,911 was erroneously reported on two different
        ARRA grants on the March 2010 quarterly report.

    •   Expenditures were under-reported by $11,417 for one ARRA grant on the March
        2010 quarterly report because the field had mistakenly not been updated from the
        prior reporting quarter.

    •   The total number and dollar of vendor payments were understated in the
        December 2009 report for the three ARRA grants sampled. 2 These two vendor
        fields were not reported on a cumulative basis, but mistakenly reported only for
        the current ARRA quarter. As such, four vendor payments totaling $1,619 were
        incorrectly reported instead of 15 vendor payments totaling $3,040, a difference
        in dollar value of almost 50 percent.

         These reporting exceptions occurred primarily due to human error in posting the
data from source documentation to the ARRA report template and were not identified
during UAA's quality review process. Specifically, the independent review process was
not complete and comprehensive because the reviewer only looked for blank fields and
“obvious errors” in the ARRA report template. Without validating the reported data
fields to source documentation maintained in its ARRA files, the University's review
process lacked assurance that the calculations made are correct, or that there were no
transposition errors that occurred while posting the data. A more robust data quality
review process of key ARRA data fields would have identified the errors we found and
allowed UAA the opportunity to correct the data prior to submission.


1
         OMB Memorandum M-09-21, Implementing Guidance for the Reports on Use of Funds Pursuant
to the American Recovery and Reinvestment Act of 2009, issued on June 22, 2009.
2
        UAA had a total of eight ARRA grants awarded by NSF.


                                                3
Recommendation:

We recommend that the NSF Director of the Division of Institution and Award Support,
coordinate with the cognizant audit agency, as needed, to require UAA to establish a
more formal and robust data quality review process to ensure its ARRA quarterly reports
are accurate and complete.

UAA Response: UAA concurred with the recommendation and has stated they worked
with the auditors to make immediate improvements to its data quality review process.

OIG Comments: UAA’s response met the intent of the recommendation. However,
UAA needs to provide NSF with the specific steps it has established to improve its data
quality review process.


2. UAA Needs To Report Jobs for ARRA Vendors

        Section 5.7 of OMB M-10-08 3 requires prime recipients to generate estimates of
jobs impacted by directly collecting data from subrecipients and vendors on the total jobs
created or retained by ARRA-funded projects and activities. Such job data collection
from all institutions receiving Recovery Act funds is essential for accurate and complete
reporting of ARRA jobs created/retained to the public and all stakeholders.

        However, UAA had not established a process for obtaining job estimates from
vendors. As of March 31, 2010, the University had made 48 vendor payments totaling
$181,767. While our review of the one large vendor payment greater than $25,000 did
not disclose that any ARRA jobs were required to be reported, it is important that UAA
establish procedures for collecting such vendor job estimates to be fully compliant with
federal guidance and to ensure any future vendor jobs are accurately reported. Such
procedures should establish the methodology for collecting quarterly job estimates and
assessing its overall reasonableness prior to reporting. In addition, the procedures should
define criteria for when job estimates should be requested. For example, job estimates
should be requested for consulting service-type contracts, which by its nature employs
people and creates jobs.

        This control weakness occurred because UAA officials lacked a comprehensive
understanding of the ARRA job reporting requirements associated with vendor payments.
University officials mistakenly believed that any jobs created or retained by Recovery
Act vendors were considered "indirect or induced jobs" that are explicitly excluded from
reporting by OMB guidance.




3
        OMB Memorandum M-10-08, Updated Guidance on the American Recovery and Reinvestment
Act- Data Quality, Non-Reporting Recipients, and Reporting of Job Estimates, issued December 18, 2009.


                                                   4
Recommendation:

We recommend that the NSF Director of the Division of Institution and Award Support,
coordinate with the cognizant audit agency, as needed, to require UAA to (a) establish
formal procedures for obtaining quarterly job estimates from vendors and (b) perform
high-level logic checks to ensure the reasonableness of the quarterly job estimates
reported by vendors.

UAA Response: UAA concurred with the recommendation and stated it has already
established procedures and developed forms to collect quarterly job estimates from
vendors and incorporate high-level logic checks to ensure reasonableness of the jobs
reported. Additionally, the University stated that the new procedures were posted on its
website on May 13, 2010 and sent to Principal Investigators. UAA also stated that it
began collecting vendor jobs data in May 2010, shortly after the auditors brought this
issue to its attention.

OIG Comments: UAA’s response met the intent of our recommendation.


3. Procedures for Ensuring ARRA Vendors and Subrecipients Are Not Ineligible
        OMB federal grant regulations 4 restrict subawards and contracts to certain parties
that are debarred, suspended, or otherwise excluded from or ineligible for participation in
federal assistance programs or activities. Accordingly, for contracts over $25,000 and all
subawards funded with federal assistance funds, recipients are required to obtain a
certification from its contractor and/or subawardee regarding its Excluded Parties List
System (EPLS) 5 status and that of its principal employees.

        However, UAA had not established a procedure requiring that EPLS certifications
be obtained prior to contract award and documented in procurement files. As of March
31, 2010, the University had one ARRA vendor contract greater than $25,000, where
officials were unable to provide any documentation on the contractor's debarment or
suspension status. While our EPLS query did not find that the subject contractor had
been excluded from receiving federally-funded work, the lack of University procedures
for consistently performing such checks increases the risk that ARRA funds, as well as
any NSF grant funds, could be potentially awarded to debarred or suspended parties.
Given the unprecedented accountability goals of the Recovery Act, such a risk is not
acceptable.

4
         2 CFR Part 215.13, Debarment and suspension, Uniform Administrative Requirements for Grants
and Agreements with Institutions of Higher Education, Hospitals, and Other Non-profit Organizations
(formerly OMB Circular A-110).
5
         EPLS provide a single comprehensive list of individuals and firms excluded by federal
government agencies from receiving federal contracts, federally-approved subcontracts, and certain types
of federal financial and nonfinancial assistance and benefits. The EPLS is used to keep agencies abreast of
administrative, as well as, statutory exclusions taken throughout the Federal Government.


                                                     5
        This control weakness occurred because University procurement officials did not
sufficiently practice sound procurement management practices and procedures.
Cognizant officials stated that they do not consistently check the EPLS prior to entering
into contractual obligations with vendors over $25,000 and do not have an established
process for documenting EPLS status in its contract files in cases where such
certifications are obtained. In addition, while UAA's grants management officials stated
that they do consult the EPLS prior to issuance of subawards, there is similarly not an
established process for documenting the determination made in grant files.

Recommendation:

We recommend that the NSF Director of the Division of Institution and Award Support,
coordinate with the cognizant audit agency, as needed, to require UAA to establish
formal procedures requiring that the EPLS be reviewed and the status documented for all
vendor contracts over $25,000 and all subaward agreements to ensure neither the
organization nor its principal employees are presently debarred, suspended, or proposed
for debarment by any federal department or agency.

UAA Response: UAA concurred with the recommendation and stated that the EPLS is
now reviewed throughout the procurement process and the documentation of such review
is being noted on various forms.

OIG Comments: UAA’s response met the intent of the recommendation.




                                            6
                                                                              Appendix A


                  Background, Objectives, Scope, and Methodology

Background:

Recovery Act Reporting Requirements:

         On February 17, 2009, the American Recovery and Reinvestment Act of 2009
(Recovery Act or ARRA) was enacted to help the nation recover from a severe economic
downturn. The Recovery Act emphasizes unprecedented levels of accountability and
transparency over the $787 billion of public funds committed by Congress, of which
$3 billion was received by NSF. The public expects that the use of ARRA funds will
result in a positive impact to our nation's economy, including jobs creation and retention.
Accordingly, Section 1512 of the Recovery Act requires recipients to submit reports on
ARRA activity no later than 10 days after the end of each reporting quarter. The first
ARRA quarterly report was required to be submitted for the period ending September 30,
2009.

        ARRA reporting instructions are contained in the Office of Management and
Budget (OMB) guidance. OMB is the primary agency responsible for providing Section
1512 reporting guidance used by federal agencies, grant recipients, and grant subrecipients.
The federal guidance clearly establishes that recipients have primary responsibility for the
quality of data submitted. In addition, NSF has issued supplemental guidance to its
recipients for ARRA reporting.

        OMB published a Recipient Reporting Data Model to define the 99 data elements
required to be reported for each ARRA grant on June 22, 2009. Clarifications to the
elements were published by OMB as a set of Frequently Asked Questions with extensive
updates published to address both recipient and federal agency concerns; many of which
were issued only a short time prior to the end of each ARRA reporting quarter. Some of
the key data elements required to be reported include award number; quarterly award
activities; funds received/invoiced; award expenditures; number of and description of jobs
created or retained; number and dollar of subawards and vendor payments; project status;
and final report indicator.

NSF Recipient Reviewed:

         The University of Alaska - Anchorage (UAA) is the state’s largest post-secondary
institution and is one of the three regional university centers in the University of Alaska
system. UAA operates with the mission to discover and disseminate knowledge through
teaching, research, engagement, and creative expression. UAA is an open access
university with academic programs leading to occupational endorsements; undergraduate
and graduate certificates; and associate, baccalaureate, and graduate degrees. In the fall




                                             7
of 2009, it had a student body of 15,662 students, 536 regular and 447 adjunct faculty
members, and 1,133 other staff.

         Sponsored programs, including research, service, and instruction occur in many
departments across campus and are also a function of a number of UAA's centers and
institutes. UAA's Office of the Vice Provost for Research and the Graduate School
provides coordination with other units within the University of Alaska and Statewide
Administration on matters of research, compliance, sponsored programs and federal
initiatives. The Office of Sponsored Programs provides review and signatory authority
for all sponsored proposals submitted to funding sources and the Grants and Contracts
Services Office provides post-award administration of sponsored programs in concert
with Principal Investigators and departmental administrators.

        As of March 31, 2010, UAA had been awarded eight ARRA grants totaling
$3.4 million, which accounted for about one-quarter of its total NSF grant portfolio of
$12.8 million and 29 awards. ARRA expenditures totaled $63,169 or 1.9 percent of total
Recovery Act funds as of December 31, 2009 and $310,588 (9.2 percent) as of March 31,
2010. At the time of our review, UAA had neither issued nor received any ARRA
subawards funded by NSF. Furthermore, UAA had received six other Recovery Act
grants totaling $2.8 million from other federal agencies.

Review Objectives:

        Our review objectives were to determine whether UAA had established an
adequate system of internal controls to provide reasonable assurance that (1) Recovery
Act funds were segregated and separately tracked in its project cost accounting system
and (2) quarterly reporting was timely, accurate, and fully compliant with Section 1512
reporting requirements.

Scope and Methodology:

        Our review focused on UAA's December 2009 ARRA report, but included review
of its March 2010 report to assess the University’s progress and improvements made in
reporting processes. We reviewed the University’s processes for compiling and reporting
Recovery Act data elements. Of the 99 data fields required to be reported for each
ARRA grant, we selected key elements that were either deemed critical to ensuring
transparency or that were considered more at risk of being reported inconsistently or
inaccurately. Accordingly, our review focused on the following eight data elements: the
number of jobs created or retained, funds received/invoiced, expenditures, vendor
payments, subaward amounts, quarterly activities/project description, project status, and
final report status indicator. To gain an understanding of UAA’s processes for compiling
and reporting of the ARRA data elements, we conducted a limited review of internal
controls related to our audit objectives. Our review included the following steps:

       •   Reviewed criteria for ARRA reporting including Section 1512 of the
           Recovery Act and OMB and NSF guidance.



                                            8
       •   Reviewed UAA policies, procedures, and processes for collecting,
           compiling, reviewing, and reporting ARRA data.

       •   Interviewed cognizant UAA officials, including Principal
           Investigators, to gain an understanding of their role in the ARRA
           project management and reporting process.

       •   Performed analytical procedures to understand and evaluate UAA’s
           Recovery Act reporting processes and related controls. This included
           the process for reporting quarterly activities/project description,
           project status, and final report status indicator; and ensuring ARRA
           funds were not awarded to debarred or suspended parties.

       •   Performed limited non-statistical sampling procedures to determine the
           reasonableness of the reported data elements when compared to
           supporting documentation for funds received/invoiced, expenditures,
           vendor payments, and subaward amounts.

       •   Reconciled the number of jobs created or retained to payroll records to
           determine the reasonableness of the number of jobs reported for a
           limited non-statistical sampling of ARRA grants. Our sample included
           jobs reported for three of eight grants in the December 2009 report.

       •   Discussed fieldwork results with UAA management officials.

        The onsite UAA review work was performed from April 26 -30, 2010,
with additional information obtained through January 2011. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan the review to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for the findings and conclusions contained in the
report.




                                            9
    To obtain a copy of the Auditee Response to this report,

     Please contact us at oig@nsf.gov or at (703) 292 7100.

In your request please specify the audit title and report number.
